<html>
<title> - FLAG ON THE BAG?: FOREIGN ASSISTANCE AND THE STRUGGLE AGAINST TERRORISM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
FLAG ON THE BAG?: FOREIGN ASSISTANCE AND THE STRUGGLE AGAINST TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2009

                               __________

                           Serial No. 111-68

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
53-672                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f081f002f0c1a1c1b070a031f410c000241">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation and Trade

                   BRAD SHERMAN, California, Chairman
GERALD E. CONNOLLY, Virginia         EDWARD R. ROYCE, California
DAVID SCOTT, Georgia                 TED POE, Texas
DIANE E. WATSON, California          DONALD A. MANZULLO, Illinois
MICHAEL E. McMAHON, New York         JOHN BOOZMAN, Arkansas
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
RON KLEIN, Florida
               Don MacDonald, Subcommittee Staff Director
          John Brodtke, Subcommittee Professional Staff Member
            Tom Sheehy, Republican Professional Staff Member
             Isidro Mariscal, Subcommittee Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Kristin M. Lord, Ph.D., Vice President and Director of Studies, 
  Center for a New American Security.............................     7
Walid Phares, Ph.D., Director, Future of Terrorism Project, 
  Foundation for Defense of Democracies..........................    15
Mr. Samuel Worthington, President and Chief Executive Officer, 
  InterAction....................................................    26
Kenneth Ballen, Esq., President, Terror Free Tomorrow............    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Kristin M. Lord, Ph.D.: Prepared statement.......................    10
Walid Phares, Ph.D.: Prepared statement..........................    17
Mr. Samuel Worthington: Prepared statement.......................    28
Kenneth Ballen, Esq.: Prepared statement.........................    36

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    54


FLAG ON THE BAG?: FOREIGN ASSISTANCE AND THE STRUGGLE AGAINST TERRORISM

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2009

              House of Representatives,    
                     Subcommittee on Terrorism,    
                            Nonproliferation and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Brad Sherman 
(chairman of the subcommittee) presiding.
    Mr. Sherman. I want to thank everyone for being here. As it 
happens, we are doing a markup of a bill that could conceivably 
involve trillions of dollars over in Financial Services, and so 
myself, the ranking member, and some other members of the 
subcommittee may have to go there. I know our vice chair may be 
able to chair these hearings for some portion of the hearing, 
and I expect that the gentleman from Virginia may do so as 
well.
    We are engaged in a global war on terror, or whatever we 
are calling it this week. Support for foreign aid is relatively 
weak among the people of the United States. I think foreign aid 
is the right thing to do because it is the right thing to do. 
But, we go back and tell our constituents that foreign aid is a 
critical part of the global war on terror or the effort for 
national security. And, it would certainly help if that were 
true. The more true it is, the more those of us who go to town 
halls will be able to explain that foreign aid is not just 
charity, it is not a<greek-l>, quote, deg. ``waste of money,'' 
but it is as important to our national security as any aircraft 
carrier. That presentation will work better if it is actually 
true.
    Now, there is no shortage of projects for us to provide 
foreign aid to. Our generosity does not match the need. It 
doesn't come close. So, even if we were to ignore certain 
opportunities to provide aid, and concentrate on others, we 
would have no difficulty finding excellent development 
projects. So even if we confine our aid to those projects that 
are consistent with our global national security effort, we 
will do just as much good as if we ignore our national security 
effort and only focus on our development objectives.
    And so I believe that we should look at our global war on 
terror objectives, our national security objectives, when we 
select which country to aid, select what program, decide on the 
methodology of the program. Do you just distribute food, or do 
you put the flag on the bag? And, finally, the public diplomacy 
effort that goes along with the foreign aid effort: To what 
extent do you resource that effort and what strategy?
    Now, I know the purists would say we should only do good, 
and only do the most good we can, without ever trying to seek 
any credit for it. I realize that philosophers and theologians 
who have focused on charity have said that the highest level of 
charity is when you provide aid and you do it anonymously. But 
these same advocates of purity internationally are happy to 
tell Members of Congress to go home and lie to our constituents 
for a good cause, and to tell our constituents that our foreign 
aid programs are carefully calibrated to meet our national 
security objectives, when in fact here in Washington they 
resist that very effort.
    Now, I know that a large portion of our aid currently is 
going to Iraq and Afghanistan, and there it is part and parcel 
of our national security effort. But those are temporary 
programs for the most part. I guess we may be providing aid to 
Afghanistan decades from now, after our national security 
interest is over. Iraq is an oil-rich country. But in any case, 
my focus here is not on Iraq and Afghanistan, but on our 
ongoing development efforts.
    Now, Deputy Secretary of State Armitage made substantial 
efforts in this area with his National Security Strategy in 
2004. He insisted literally on the flag on the bag and graphics 
of ``From the American People.'' He faced considerable 
opposition. He succeeded. American foreign aid can help improve 
the image of the United States.
    For example, we provide very massive aid to Egypt but have 
only a 27 percent approval rating. In 2003, the Advisory Group 
on Public Diplomacy for the Arab and Muslim World issued a 
report stating that too few people in the Arab and Muslim world 
knew the extent of U.S. foreign assistance efforts. If people 
don't know about our aid, one wonders how that can be part of 
an effort to gain popularity for the United States and our 
values.
    A positive element was seen in Indonesia. In 2004, 79 
percent of Indonesians said they had a more favorable view of 
the United States as a result of our aid in the wake of the 
tsunami. In recent surveys in Pakistan, it was found that more 
than six out of every ten Pakistanis, even those who have a 
favorable view of bin Laden and al-Qaeda, said their opinion of 
the United States would significantly improve if the United 
States increased its aid to Pakistanis.
    Now, those who are advocating that we take the flag off the 
bag--and they are seeking to do that by persuading the 
administration--should realize that this is not only good 
policy, it is the law. Section 202 of the Food for Peace Act 
and section 641 of the Foreign Assistance Act require branding 
to the fullest extent practicable.
    I should note that in the area of foreign affairs, 
sometimes this administration and the prior two administrations 
simply ignore statute, for example, the Iran Sanctions Act. But 
I would hope that those who are advocates of development and 
democracy in foreign countries would believe in democracy in 
the United States. And whether they think the flag on the bag 
is good policy for the United States or not, a proper respect 
for the rule of law would call upon them to ask the 
administration to adhere to the law while it is on the books.
    The administration has not been able to provide us with a 
witness here today. This shows a tragic lack of focus on the 
issue we are talking about. If we had a division that didn't 
have a general for 10 months, it would be a national scandal. 
But who can say that USAID is less important to American 
national security than a single division in the United States 
Army?
    Yet, we do not have a head of USAID, and in fact we don't 
have anybody over there who feels that they can come here and 
explain how our foreign aid policy juxtaposes with and 
coordinates with our national security policy. Do you think 
that there is a single general who can't describe how his 
division juxtaposes with our national security policy? And yet 
I think that our foreign aid policy is more important than any 
aircraft carrier group to our national security.
    So whether it is country selection, project selection, 
project methodology, or public diplomacy, all of these need to 
be tailored to meet our national security objectives. This is 
important for our national security and has the additional 
advantage of allowing us to go back and advocate foreign aid 
and to do so truthfully. If we can show that our foreign aid is 
tailored to our national security efforts, then we might well 
see our foreign aid efforts funded at the aircraft carrier 
level.
    Until then, the efforts of the purists are both 
inconsistent with any purist obligation to tell the truth, and 
inconsistent with the objective of increasing our foreign, aid 
and, coincidentally, inconsistent with our national security 
objectives.
    With that, I will yield to our ranking member.
    Mr. Royce. Thank you, Mr. Chairman. I appreciate it.
    The subject of today's hearing, branding foreign aid--in 
other words, letting the recipient of the aid know that it is 
the U.S. that is doing the aiding--I think we agree that in a 
number of instances this can generate goodwill. The chairman 
has shared with you the often-cited results of U.S. relief 
efforts that in the 2004 tsunami clearly indicated that it had 
a beneficial effect in Indonesia, and certainly we saw some of 
that in the aftermath of the 2005 earthquake in Pakistan. And 
presumably goodwill translates into Indonesian and Pakistani 
Government policies that are more aligned with ours, including 
combating terrorism. Emergency relief aid, though, might be 
unique.
    I have read through a CRS memo that notes that after 
providing tens of billions of dollars in aid to Egypt over the 
years, much of that aid branded, only 6 percent of Egyptians 
view the United States favorably.
    I spent this morning with a Colonel Kim who had defected 
from North Korea and testified before the Tom Lantos Human 
Rights Commission. He shared with us the result of the foreign 
aid, the food aid, that went into North Korea and explained how 
that aid ends up supporting the North Korean military.
    As a matter of fact, there was one particular example where 
the NGO was so insistent that they go along to see the aid 
given out in the community that the military took the NGO out 
there with the aid, and then came back up afterwards and 
collected the aid and took the aid where they always take it, 
which is the military. Now, I did ask him, does it always end 
up in the hands of the military? No. It turns out the French 
NGOs were right; some of it ends up on food exchanges in the 
nation's capital where it is sold for hard currency. But one 
way or another, none of it gets into the hands--well, suffice 
it to say that this, in his view, it was propping up the regime 
and it had for years. And, on top of that, it had the added 
benefit, from the standpoint of the North Koreans, of helping 
give them the hard currency so that they could develop three-
stage ICBMs, helped them a little bit in terms of their efforts 
developing a nuclear weapon, and he explained to us how they 
are now working to miniaturize those nuclear weapons so they 
will have delivery capability.
    But when asked about this kind of aid, he said: ``Why 
wouldn't you instead give us medicines that they couldn't have 
sold, and at least that could be done? You know the effects of 
the malnutrition on North Koreans. Half of them are affected to 
the point where they, you know, we can see that they are 
stunting their growth.''
    But this is me speaking now for a moment. I have been over 
in North Korea. It is very clear that the malnutrition is 
affecting the ability of children to think and conceptualize 
and so forth. Why not that kind of aid instead of the type of 
aid that ends up getting into the hands of the regime? Why 
aren't we more cautious about this?
    Well, I think part of it is we never check our premise on 
this. We never ask ourselves: How are these totalitarian 
regimes utilizing this aid and for what purpose? And I think at 
the end of the day, you know, we know that it has been U.S. 
policy to try to brand foreign aid when possible.
    But I do think, I agree with the chairman, I think the 
application of this has been somewhat haphazard, whether it is 
U.S. law or not. There are exceptions which are wise, if 
branding threatens the lives of aid providers, certainly, but 
others are unacceptable to me if the name on the bag is a self-
promoting NGO instead of ``USA'' on the bag.
    And that brings us to one of the other questions that I 
think we will get into today. All aid will have a brand of some 
sort, because resources do not go unclaimed. Sometimes our 
enemies rebrand the aid. Unbranded or U.N.-branded aid that we 
provide has been manipulated, and sometimes even granted to 
terrorists, as we have heard in the past about such groups as 
Hamas ending up utilizing aid for its own purposes. Al-Shabab 
in Somalia certainly is a problem. Some portion of our aid to 
Afghanistan reportedly fell into the hands of the Taliban who 
used it for their own purposes.
    I hope the committee moves H.R. 1062, Ranking Member Ros-
Lehtinen's Foreign Assistance Partner Vetting Act of 2009, 
because that bill would address these types of abuses.
    In considering these issues, we should guard against 
falling into a self-absorbed view that events throughout the 
world, especially the Muslim world, are mainly determined by 
what we do. And this is something I would caution our 
witnesses, because I have more and more seen a tendency for us 
to think this way, and the mindset is that if only we do this, 
or if only we do that differently than we do now, the situation 
on the ground overseas is magically going to improve.
    Countries struggle with their own demons, many including 
despotism that goes far, far back that creates dysfunctional 
society. And it is not all about us. It isn't. And the 
presumption that if we do things differently it is going to 
change, I think, is an interesting one.
    One dangerous force at play is the jihadist activity that 
we see around the world, a very intolerant version of Islam 
that gravely threatens the United States abroad and at home. I 
think the Fort Hood massacre underscores that.
    Boosted by petro dollars, and highly organized, I have seen 
jihadists march across Central Asia and across Africa. In my 
trips over there when I chaired the Africa Subcommittee, I 
watched it grow like a cancer, displacing in many areas--
displacing mainstream Islam with a very different version and 
very confrontational version of this. And jihadists have a dark 
and grim vision for their societies. Women are battered in 
these societies. The slightest offense to the orthodoxy can end 
up meaning death.
    I have seen schools where 13 boys were decapitated in 
Central Asia because they rejected jihad in the madrassah, so a 
Gulf state custom was suddenly imposed.
    The Taliban certainly are adherent to this philosophy. And 
this jihadist thinking has been around for a long time. It is 
going to continue its hostility to our country, regardless of 
U.S. foreign policies, I am afraid, from what I have seen. And 
no matter how much aid we trumpet, I think the madrassahs are 
going to continue to turn out young men who have this ambition. 
Where radical Islam rules, I would say, Do not expect to be 
loved, flag or no flag on the bag.
    And I thank you, Mr. Chairman, for holding this hearing.
    Mr. Sherman. At this point, are there other opening 
statements?
    Mr. Connolly. Mr. Chairman.
    Mr. Sherman. I recognize Mr. Connolly.
    Mr. Connolly. Mr. Chairman, thank you for holding today's 
hearing on what I believe to be a vital component of our effort 
to revive the mission and identity of the United States Agency 
for National Development.
    The need for drawing a coherent connection between our 
national security and international policies, I think, has 
reached a critical point. To its credit, the administration has 
initiated steps to evaluate current U.S. development policy.
    In July, the State Department announced its Quadrennial 
Development and Defense Review which will provide the short-, 
medium-, and long-term blueprint for our diplomatic development 
efforts.
    Soon after that, the President authorized a Presidential 
Study Directive on Global Development Policy. These assessments 
are, at best, adequate first steps, but we must continue 
striving for the larger goal of overhauling the U.S. 
development apparatus so that foreign assistance is distributed 
in the most efficacious way possible.
    Of course, all of these efforts have been hampered by the 
fact that we have gone nearly a year without clear leadership 
at USAID. The nomination of current Agriculture Under Secretary 
Rajiv Shah is encouraging, but the administration must equip 
him with the tools and freedom to hit the ground running if we 
are to succeed in reviving the agency and its mission. 
Effective development requires a strong USAID and experienced 
development professionals in the field.
    Foreign aid can benefit noble causes: Women's empowerment, 
poverty reduction, disease reduction. And it ought to be 
centralized, not micromanaged. I know the committee will 
address this issue on a larger scale in coming months, and I 
thank the chairman for his leadership in foreign aid reform.
    There is a misconception that development is based on 
short-term charity. That notion is false. The true goal of 
development is to empower local populations to gain skills and 
build institutions that improve their lives and the lives of 
future generations. This in turn helps the United States by 
promoting economic and social stability. It also can help spur 
goodwill and improve our relations with a myriad of other 
nations.
    While there are circumstances in which we or our partners 
may not want to push the USAID brand, it is clear we are not 
seizing strategic opportunities with the aid we do provide. If 
the United States plans its foreign aid strategy properly, 
investments in that aid will return to us many times over.
    Just look at the strides already made in education, for 
example. The agency's American Schools and Hospitals Abroad 
program has assisted 237 institutions in more than 70 
countries. It has facilitated the development and sustainment 
of superior libraries, schools, and medical centers in Africa, 
Asia, Eurasia, Europe, Latin America, Caribbean, and the Near 
East.
    We need a robust reinvigorated U.S. development agency, one 
which consolidates and coordinates the disparate initiatives 
such as the Millennium Challenge Corporation, the President's 
Emergency Program for AIDS Relief, short funding, and the 
expanded bilateral program with Pakistan, just to name a few.
    In addition, I believe USAID ought to have a seat in the 
National Security Council to further cement its mission and 
voice as the lead agency in this government on international 
development matters.
    Moving forward, our foreign assistance and development 
policies must have a focal point for their articulation and to 
ensure full accountability. The time has come, in my opinion, 
to rebuild and refocus the Agency for International 
Development. And I yield back. Thank you, Mr. Chairman.
    Mr. Sherman. Are there other opening statements? The 
gentleman from Florida.
    Mr. Klein. I thank the chairman and ranking member for this 
important hearing. As the full committee is engaged in a 
discussion about how to make foreign aid more effective and 
efficient, this discussion comes at an opportune time and very 
timely as we begin this process.
    Foreign aid is one of many important ways that we can 
express our foreign policy priorities, and with the right 
strategies America can advance its leadership and values. I am 
glad this hearing will focus on whether or not we claim credit 
for the funds we distribute, which has already been discussed. 
And I also want to make sure to mention that whether or not we 
promote the American role in the aid, it is the taxpayers' 
money, and taxpayers have every right to hold our partners 
accountable. This means appropriate and sensible vetting. This 
also means flexibility to respond to events that happen around 
the world. And this means implementing robust end-use 
monitoring strategies. We must know where our equipment and 
funds end up. And, obviously, from time to time--when we hear 
the stories about it ends up in the wrong hands--Americans are 
rightfully upset.
    Just last week, the New York Times reported that in the 
middle of what could be a proxy war between Saudi Arabia and 
Iran, Yemeni extremist groups<greek-l>, quote, deg. ``do not 
seem to need military supplies from outside the country; they 
have no trouble buying or stealing them from Yemen's 
military,'' <greek-l>closed quote,  deg.which receives supplies 
from us, the United States.
    So I look forward to this conversation and the opportunity 
to learn more from our guests today, and I thank the witnesses 
for being here and for their thoughts. I yield back the balance 
of my time, Mr. Chairman.
    Mr. Sherman. Thank you.
    Mr. Sherman. Are there further opening statements? Seeing 
none--ordinarily when I would leave, our vice chair would come 
to the chair. It is my understanding that he, like myself, 
wants to spend more time at Financial Services. So I will call 
upon the gentleman from Virginia at some point, unless he has 
found Financial Services to be less interesting than I do. But 
I want to hear at least the first witness. Then I am going to 
turn it over to the gentleman from Virginia. I will be back to 
ask questions. And I have read most of your statements, so if I 
am not here in person it is not that I am going to lose the 
opportunity to learn your wisdom, I just will miss the 
opportunity to see you deliver it in person.
    Dr. Lord is the vice president and director of studies at 
the Center for a New American Security. Prior to that she was a 
fellow in foreign policy studies at the Saban Center for Middle 
East Policy at the Brookings Institution. Dr. Lord.

    STATEMENT OF KRISTIN M. LORD, PH.D., VICE PRESIDENT AND 
    DIRECTOR OF STUDIES, CENTER FOR A NEW AMERICAN SECURITY

    Ms. Lord. Thank you very much, Mr. Chairman, Ranking Member 
Royce, and distinguished members of the subcommittee. It is a 
true honor to appear before you today to discuss the branding 
of foreign assistance and its place in the struggle against 
violent extremism.
    As the first speaker on this panel, I will summarize some 
of the benefits of publicizing foreign assistance, but I will 
also sound a few notes of caution.
    Violent extremism is a complex phenomenon, with many 
causes, and I have tried to lay out a few of those causes in my 
written testimony. But it is also sustained by anti-
Americanism. Widespread anti-American sentiment provides 
fertile grounds for extremist ideologies and makes it harder to 
accomplish American foreign policy objectives, including but 
not limited to countering terrorism.
    Support for terrorist networks like al-Qaeda is waning in 
many predominantly Muslim societies, but nonetheless violent 
extremists still find it all too easy to translate anti-
American attitudes into tangible benefits: Money, safe havens, 
new recruits, and moral support. Anti-American attitudes remain 
prevalent despite positive reactions to the election of 
President Obama. Indeed, just 27 percent of Egyptians, 25 
percent of Jordanians, and 16 percent of Pakistanis hold 
favorable views of the United States.
    These attitudes, frankly, mystify many Americans who see 
the large amounts of financial assistance Americans provide to 
those in need, and they recall the military commitments our 
country has made to defend Muslim societies residing in Kuwait 
and the Balkans. If the world just knew how much good we do, 
some argue, anti-American attitudes would subside and violent 
extremists would find less fertile territory for their vicious 
ideologies.
    This argument presumes that anti-Americanism stems from a 
fundamental lack of awareness about our country's good 
intentions and actions. And for those who hold this belief, a 
logical extension is to recommend that the United States should 
build greater awareness of American aid by both branding and 
publicizing foreign assistance. And, indeed, there is solid 
empirical evidence that at least in cases of two significant 
humanitarian disasters, foreign assistance did improve public 
opinion toward the United States. The chairman and ranking 
member have already provided these figures, they are in my 
written testimony, but let me add just one more provided by the 
nonprofit group, Terror Free Tomorrow, whose president is with 
us today.
    According to Terror Free Tomorrow, 63 percent of 
Indonesians and 78 percent of Pakistanis reported having a more 
favorable opinion because of that assistance. So, in other 
words, those who had a more favorable opinion attributed that 
directly to American aid, and I think that is worth 
underscoring. Yet we should not over learn the lesson that 
foreign assistance leads to more favorable public opinion.
    First, the data linking aid and favorable public opinion is 
extremely limited and it is largely focused on large-scale 
disaster relief which could be a special case. The USAID has 
conducted analyses of public opinion before and after 
communications campaigns in recent years. Such studies are the 
exception. They have surveyed only limited audiences, and they 
haven't tracked the impact of foreign assistance on public 
opinion over sustained periods of time. If we are honest with 
ourselves, we actually have very little empirical evidence to 
justify a face on branding.
    Second, favorable reactions to humanitarian assistance seem 
to have a relatively short shelf life. Only 1 year after 
delivering earthquake aid, only 15 percent of Pakistanis 
reported favorable opinions toward the United States, a lower 
percentage than the years immediately before the aid was 
delivered. In addition, while 38 percent of Indonesians 
reported favorable views of the United States after the tsunami 
aid, that percentage soon dropped to 29 percent in 2007.
    Third, the link between foreign assistance and more 
favorable public opinion is far from clear-cut. The recent 
announcement of a $7.5 billion aid package to Pakistan, the so-
called Kerry-Lugar bill, was met by widespread outrage, not 
gratitude, due to Pakistani perceptions that mandatory 
protections against corruption were too intrusive. To give 
another example, only 27 percent of Egyptians hold favorable 
opinions of the United States, though Egypt has received nearly 
$70 billion in U.S. aid since 1975.
    In addition to being careful not to draw unwarranted 
conclusions about the relationship between aid and opinion, 
there are special circumstances when our Government should 
consider carefully whether to brand or publicize foreign aid 
assistance at all.
    When the lives of aid workers are placed in jeopardy due to 
their association with U.S. assistance programs, the protection 
of these individuals should weigh heavily against the desire to 
claim credit. And in the midst of active counterinsurgency 
campaigns, such as the war in Afghanistan, questions of how and 
whether to brand assistance should be evaluated in the context 
of broader security, economic, political, and cultural 
considerations. In these circumstances, America's strategic 
success, not to mention American lives, depends on 
strengthening public confidence in the indigenous government 
and its ability to deliver services to the population. Thus, 
the United States should maintain enough flexibility in its 
branding guidelines to make sure it is not undermining its own 
wartime strategy.
    In most instances, however, the real question will not be 
whether to brand or publicize foreign assistance, but how. 
Americans generally should embrace transparency and take steps 
to make foreign publics aware of the assistance that is 
provided by our Nation and funded by our taxpayers, but we 
should not undermine our own objectives by giving the 
appearance that we are only giving assistance in order to 
improve our own popularity.
    U.S. representatives overseas should therefore take care 
not to create the impression that the United States gives aid 
only to get something in return. Where U.S. foreign assistance 
is unpopular, those perceptions in fact often arise because of 
the belief that aid is an attempt to meddle in the affairs of 
other nations, perhaps even with maligned intent. So spreading 
knowledge of U.S. assistance without addressing perceptions 
about why that assistance is given could be time ill-spent.
    In conclusion, the United States gives foreign aid for many 
reasons unrelated to public opinion, and it should continue to 
do so. Improving foreign opinions about the United States is 
only one, and not even the most important, reason why the 
United States provides assistance to foreign countries. Though 
assistance can and should play a role in improving America's 
relations with the world, public diplomacy--and, by the way, I 
am known as a public diplomacy advocate----
    Mr. Sherman. Dr. Lord, I am going to have to cut you off. 
You have gone considerably over.
    Ms. Lord. My apologies.
    Mr. Sherman. That is okay. I didn't start tapping until a 
few seconds ago. With that, I am going to turn it over to the 
gentleman from Virginia, and I look forward to coming back when 
it is time for me to ask questions. Thank you.
    [The prepared statement of Ms. Lord 
follows:]<greek-l>Kristin Lord deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Connolly [presiding]. Thank you very much, Dr. Lord.
    Dr. Walid Phares is a senior fellow at the Foundation for 
the Defense of Democracies. He also leads the Foundation's 
Future of Terrorism project. He is also a senior fellow at the 
European Foundation for Democracy, and an adjunct professor at 
National Defense University.
    I would say to all of our witnesses, we have your full 
statement which will be included in the record. So if you could 
summarize your testimony, that would be most welcome. Dr. 
Phares.

STATEMENT OF WALID PHARES, PH.D., DIRECTOR, FUTURE OF TERRORISM 
         PROJECT, FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Phares. Thank you very much. I would like to thank the 
chairman and the members of the committee for extending this 
invitation to me to testify on foreign assistance and the 
struggle against terrorism.
    For almost a decade the United States has been involved in 
a confrontation with terror forces overseas and at home. During 
these years, huge amounts of foreign aid has been dispensed in 
the countries where these forces operate and produce 
radicalizations.
    The first three quick questions are: Has that aid, 
strategically speaking, and humanitarian assistance been 
helpful in countering, reducing, and even containing 
radicalization, let alone terrorist activities and influence? 
The short answer is no.
    The second question: Should we use foreign aid and 
humanitarian assistance in our global strategy to mitigate 
extremism and enhance counterterrorism? The short answer, of 
course.
    The third question: Are there problems and oppositions in 
using foreign aid? Do we encounter resistance when we are 
engaging this policy? The short answer, yes, they were; and, 
yes, they are.
    Based on my 30 years of experience before the Cold War, 
after the end of the Cold War, and after 9/11, and in engaging 
with ideologues who basically refuse the idea of American 
foreign aid, interaction with European lawmakers and experts 
who have a parallel experience in extending foreign aid and the 
resistance to it, and of course after having consulted on 
strategic communications across U.S.--defense, national 
security, and diplomacy since 9/11--I would raise five points 
related to the issue and make my recommendations.
    Point one is the use of aid. Point two is, do we have the 
resources? Point three, are there forces countering our 
messaging? Point four, what is the state of our strategic 
communications in response to that challenge? Point five, what 
are the actual options in branding that we have and 
recommendations?
    Point number one. USAID must be used basically to ensure 
that these societies engaged in resistance or in struggles 
against terrorist forces would actually benefit from our help, 
and, at the same time, are backed by the international 
community. USAID is one of the most strategic tools the United 
States has in the struggle against terrorism and 
radicalization. It may, if well used and smartly, avoid future 
confrontations.
    Point number two. Do we have the resources? We have a vast 
panoply of agencies and resources in the existing agencies. My 
estimate is that what we have now exceeds what we need to 
counter the narrative.
    So the question is, how come we failed? There are two 
answers. One has to do with the forces that are countering the 
U.S. messaging. And, second, the failure of U.S. strategic 
communications in assisting in this messaging.
    The forces countering U.S. messaging are simply wide, 
global, interconnected, and focused on rejecting the message 
that goes along with U.S. aid. They are regimes, they are 
organizations, and they are media that are coming together in 
an effort, a global effort, not always a coordinated effort, to 
basically sink our message.
    Among the regimes that have been openly involved in 
countering the U.S. message that comes with United States aid 
are certainly Sudan, Iran, and Syria. I have examples I can use 
in the Q and A section.
    Among the organizations that have been able to counter the 
U.S. message that comes with U.S. aid, you have two types: 
Those that are in control of areas, specific areas, and those 
that are influential in those specific areas. Type one 
examples: Hamas in Gaza; Hezbollah in Lebanon; Taliban in the 
Pakistani-held areas inside the northwestern provinces; an 
example also in Somalia, Shabab-al jihad, in those areas, and I 
could expand on that later.
    These organizations have been able to deploy a vast array 
of means and ways to either counter the message or appropriate 
the message, let alone to control the distribution system.
    Other organizations that are not dominant in their areas or 
their countries, such as Salafist, neo-Wahabis, Deobandis, and 
multiple countries--and I would indicate the weakest countries 
would be the Safal areas in Africa stretching from Chad to 
Senegal--have also been very effective in countering our 
message.
    So, basically, the strategic global success of the United 
States depends, on the one hand, on the capacity of these 
forces in countering our message. The examples of success of 
U.S. messaging was in the tsunami case, as it was mentioned. 
But keep in mind that 1 week after the rate went up, a 
collaboration between various Salafi forces in Indonesia and 
the intense activity by media that counters our message 
basically killed the progress that was made.
    The same could be said about Hezbollah in Lebanon.
    Mr. Connolly. Dr. Phares, I am going to have to ask you to 
sum up.
    Mr. Phares. I would only mention here that strategic 
communication has to be reviewed both in regard to the cultural 
advising body that we have, and with regard to the U.S.-funded 
media that we also have.
    Branding, we have three options: One is to not brand at 
all, and that would give the adversaries the ground; blind 
branding; that is, to put the flag but not the message, and 
that would return to not branding.
    I would recommend strongly to use the strategy or the 
option of strategic branding; that is, branding but, of course, 
have a strategic messaging that would go with it.
    [The prepared statement of Mr. Phares 
follows:]<greek-l>Walid Phares deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Connolly. Thank you, Dr. Phares.
    Samuel Worthington has been president and CEO of 
InterAction, the Nation's largest alliance of U.S.-based 
international relief and development NGOs, that is 
nongovernmental organizations, since October 2006. Mr. 
Worthington serves on the Advisory Committee for Voluntary 
Foreign Assistance at the U.S. Agency for International 
Development, and also sits on the board of directors for the 
U.S. Global Leadership Campaign and the Alliance to End Hunger. 
Welcome, Mr. Worthington.

   STATEMENT OF MR. SAMUEL WORTHINGTON, PRESIDENT AND CHIEF 
                 EXECUTIVE OFFICER, INTERACTION

    Mr. Worthington. Thank you, Mr. Connolly. Thank you very 
much for this opportunity to address you today and to talk a 
little bit about foreign assistance and the role that the U.S. 
NGO community plays in spreading generosity around the world. 
As mentioned, InterAction is the largest coalition of U.S. 
nonprofits involved in relief and development. We have more 
than 185 members operating in every developing country, in many 
ways, with 106,000 staff, many of them mostly local, working to 
overcome poverty, exclusion, and suffering.
    Our community supports the marking and branding of U.S. 
foreign assistance. We recognize it as an important tool of 
America's image overseas. We routinely mark ``from the American 
people'' on the programs we are engaged with in partnership 
with the American Government. We are proud to express the 
compassion of the American people. And it is important to note 
this engagement of Americans that most of the resources 
received from our community, over 70 percent, come directly 
from private contributions. We are engaged in villages and 
communities overseas, in many ways thanks to an outpouring of 
the American people.
    The current marking and brandy policy of U.S. Government 
represents a workable and fair balance to ensure foreign 
assistance is properly credited to a source. At the same time, 
with members of our staff killed, threatened, or kidnapped, we 
do not want to compromise the safety of U.S. citizens, our 
national staff, or partners as they operate and work on the 
ground, particularly with local groups under authoritarian 
regimes.
    There are situations to establish exemptions in these 
areas, and it is important to recognize that in those countries 
that have authoritarian regimes, the ability to rest, to engage 
in aid, depends on our ability of having aid workers on the 
ground. These are rare exceptions. They are waivers that, 
however, are critical to the safety of our staff. This is a 
very real danger. In 2008, 206 humanitarian aid workers were 
killed, kidnapped, or seriously injured; 28 of those were 
employees of our member organizations.
    I saw this firsthand when I visited our members' programs 
in El Fasher, Darfur, traveling through the center of town with 
a large ``No Gun'' symbol on our vehicle. In this kind of 
situation, it is not just the American flag that will draw 
hostile criminal attention, but any flag of any wealthy nation.
    And just some points in conclusion. The members of 
InterAction believe that marking and branding of U.S. 
Government-funded programs overseas is important and vital to 
shaping the goodwill and generosity of Americans overseas and 
to sharing that with the populations we try to reach.
    At the same time, we see that we have an important 
responsibility for the safety of our employees, and recognize 
that there are circumstances where a population may receive 
something, where they will feel afraid to be attacked by a 
third party if it is marked or branded. In these cases, where 
the marking of goods and programming as distinctly American, 
places the lives of our employees at additional risk, we will 
take advantage of these rare exceptions provided by the U.S. 
Government regulations to have waivers to these requirements.
    It is crucial, as organizations that operate in the world's 
most dangerous places, that we do not cede the dangerous 
streets of this world to extremists, and see the utility of 
program that we run as powerful tools in fostering a positive 
view of the American people. In many ways, nonprofits operating 
overseas are a face of America operating in the most difficult 
circumstances, and this type of humanitarian assistance or 
development aid programs overseas are two very powerful weapons 
in what has been known as the war on terror.
    Marking and branding are important, but they are simply one 
tool in ensuring that this presence of nonprofits overseas 
exists and that as we, as a community of Americans, often with 
our own resources, try to show our Nation's character and 
values in very difficult circumstances are able to operate. 
Thank you.
    [The prepared statement of Mr. Worthington 
follows:]<greek-l>Samuel Worthington deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Connolly. Thank you, Mr. Worthington.
    Ken Ballen. Ken Ballen is the president of Terror Free 
Tomorrow. During his more than 20 years of experience in 
international relations, he has advised Members of Congress on 
policy initiatives regarding crime prevention and security, 
intelligence oversight, and select national security measures. 
Welcome, Mr. Ballen.

   STATEMENT OF KENNETH BALLEN, ESQ., PRESIDENT, TERROR FREE 
                            TOMORROW

    Mr. Ballen. Thank you very much, Mr. Chairman. And thank 
you for holding this hearing, trying to get at the facts behind 
what occurs in other countries and set policy based on those 
facts. That is what we have been doing since 2004.
    Our mission at Terror Free Tomorrow is to understand why 
people support extremism and, as importantly, why they might 
oppose it. We have conducted over 30 public opinion surveys in 
Muslim majority nations, interviewed more than 100 extremists. 
My focus today, however, is not on why an individual may become 
a terrorist or extremist, but how public opinion matters.
    There are three issues. One, why people support al-Qaeda or 
extremism? What can the United States do about it? And, third, 
why does it matter? And I would agree with the ranking member. 
Sometimes we have too much of an American-centric view on these 
matters, and oftentimes public opinion in other nations is 
driven by internal factors having little to do with the United 
States. Nonetheless, we must act.
    And that brings up an important point. When people in 
surveys say they are sympathetic to bin Laden or al-Qaeda, what 
does it really mean? Is that support a deeply held ideological 
belief, or is it more in the nature of a protest vote? Are they 
saying they are unhappy with their own government, or they are 
unhappy with American foreign policy?
    We found through over 30 surveys that it is the latter. For 
the vast majority of people who indicate support for extremism, 
it is more in the nature of a protest vote, more in the nature 
of a dissatisfaction with their own condition, intensely felt 
as it is, than any kind of deep ideological commitment.
    Indeed, what we find when we have asked people what would 
change their view from supporting extremism--as the chair 
mentioned earlier--Mr. Chairman, we found that in Pakistan, 
through four nationwide surveys, that six out of ten people who 
support al-Qaeda, who support bin Laden, would change their 
point of view if American aid was directed to Pakistani people 
themselves. Now, of course, not everyone is going to change 
their point of view. There are some people that, no matter what 
the United States does, it makes no difference whatsoever. They 
are die-hard dead-enders for al-Qaeda and the extremist point 
of view.
    We have seen two examples where we did the first polling, 
both in Pakistan and Indonesia, after the tsunami and after the 
earthquake, where American aid made a substantial difference. 
Now, some people have said that has to do with the fact that it 
was an emergency, and tragedy was vast. That is true. But I 
submit what we found in our surveys, based on the evidence that 
what drove the change of opinion toward the United States, was 
the fact that American aid went directly to the people in the 
countries involved and directly helped them. It did not go to a 
corrupt government where it was siphoned off, or an unpopular 
government.
    And that is the lesson that we should take from those 
experiences. Not that American aid cannot change opinion and 
not that that change in opinion cannot be sustained, because it 
can be sustained. It is the type of aid that is delivered and 
how it is delivered. And it is important also to remember, both 
in Pakistan and Indonesia, that it wasn't the United States 
that carried the message of our aid, it was the local media 
inside the country that was trusted by people viewing it. That 
is an important distinction, too. So it didn't come across as 
propaganda or as message, but as news. And people saw the 
United States and al-Qaeda supporters and bin Laden supporters 
and people who supported Pakistani terrorist groups said they 
welcomed the United States in their view change.
    So these are valuable lessons that we should take. We can 
make an impact on the support for extremism around the world. 
The people who indicate support for that extremist are not much 
different from their contemporaries. They want economic 
development, they want more democracy, they want goals that are 
anathema to al-Qaeda itself.
    The people who support--the very small, small, small group 
of people that support al-Qaeda can be isolated in these 
countries. We have seen success stories in Indonesia and in the 
Philippines where American policy, working together in the 
country delivering aid on the ground and in a sensible fashion, 
achieves a real victory in the war on terror.
    We can have more victories like that, and United States 
foreign assistance can play an important role. Thank you.
    [The prepared statement of Mr. Ballen 
follows:]<greek-l>Kenneth Ballen deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Connolly. Thank you, Mr. Ballen.
    And the subcommittee will operate under the 5-minute rule. 
Let me say before my time starts that we expect votes to be 
called any minute, and there are going to be at least four 
votes and it is probably going to be about 40 minutes on the 
floor. So we are going to have to interrupt the hearing, and I 
hope you will be able to indulge us and stay. Members of the 
subcommittee don't control the floor schedule; otherwise we 
would postpone these votes for this hearing. So bear with us. 
Thank you.
    If I could begin with you, Mr. Ballen. I am very intrigued 
with what you just said and what we have learned: That what 
creates a popular shift in opinion is the hands-on dirty 
business of actually delivering real development assistance. 
And I think there has always been a debate, frankly--I used to 
work in the Senate Foreign Relations Committee. My job was to 
write the Foreign Assistance Act every year, or legislation 
every year. And, frankly, the folks at the State Department all 
too often were satisfied with writing big checks to the central 
bank to keep a client-state happy when the folks at AID were 
actually trying to do the more difficult task of actually 
developing projectized aid. It seems to me that what you 
suggest we have learned is projectized aid has much to commend 
it.
    Mr. Ballen. I think you are absolutely right, Mr. Chairman. 
That is the point. I mean--and it was earlier cited, statistics 
about Egypt--when we give large amounts of aid to a government 
that is basically and deeply unpopular inside the country, I 
don't know how we can expect, whether we brand that aid or not, 
people to appreciate that aid. You know, it is just either 
feeding--and we have this experience in Pakistan. We gave $10 
billion to the Musharraf regime, a regime that became deeply 
unpopular in Pakistan, and it is not going to win us any points 
among the Pakistani people. And I think it is a Cold War model. 
I think we used to see--we had to buy off client-states, and it 
was just a matter of giving the aid to the government.
    You know, that is over with. We are in a different kind of 
struggle. The struggle against extremism comes from the ground 
up. And if we are going to start to affect it with our foreign 
assistance, then we have got to affect it from the ground up 
and not from the top down.
    Mr. Connolly. And the final point on what you are saying 
too, that I draw, is it goes way beyond the issue of labeling.
    Mr. Ballen. Absolutely. I think that is not the fundamental 
issue. The fundamental issue is the type aid we give. And then 
if we do that, I think the message will get out. I think the 
idea that we can somehow have Madison Avenue marketing or 
branding or whatever, I think that is foolish. I don't think it 
is effective and I think it can be counterproductive. But if we 
are delivering aid in a meaningful way, in the way that people 
for Mr. Worthington's group do and other people do, that is 
going to make a difference over time.
    Mr. Connolly. And that requires patience and investments of 
time. And Mr. Worthington, you are shaking your head in 
concurrence. Did you want to comment?
    Mr. Worthington. One thing that the nonprofit community has 
learned is that the only way to make a difference in the lives 
of people is to have people involved in their own development 
process. They have to be engaged in change that benefits their 
children, their families, their community.
    And it is not just targeting the people, but it is the 
front line of government. It is that interface between a 
community and that local municipal government, enabling that 
government to provide services to a people. That is what our 
community has been doing for decades, and we have primarily 
been doing it with private resources that are donated by the 
American people directly to our organizations. Oftentimes we 
find that project aid, even projectized aid that isn't 
listening to what the people want, doesn't become owned by 
them, so that that school is a school that is given, rather 
than one of our members who has about 450 schools in Pakistan 
or built by the local community themselves. They respect that 
type of aid. It is slow, it is complicated, it is one valley at 
a time, and it does take decades.
    With a program with that type of approach, I do believe 
that you will find the aid program of the United States will 
change hearts and minds. It is not in years, but it will 
happen.
    Mr. Connolly. Thank you. I am going to try to get one more 
question in before I hand the gavel back over to our chairman.
    Dr. Lord, I was listening to your testimony and it is very 
striking that $70 billion to Egypt, pretty much as a Camp David 
Accord, and not widely appreciated. We are not getting a lot of 
bonbon and flower pedals at our feet.
    Indonesia and Nigeria are two Muslim majority nations with 
a positive opinion of America and our involvement in those two 
countries. To what do you attribute the contrast? And, Dr. 
Phares, please feel free to comment as well.
    Ms. Lord. Well, I am not an expert on the details of those 
aid packages, but I can make some comments. I think one major 
issue is the one I raised about perceived intent, when people 
think that aid is being given but the objectives of the United 
States are not in their best interests.
    So to give one example, I know a television producer in 
Egypt who received United States aid funds, produced some 
television programs, and he was pilloried afterwards because 
people kept asking him why did the United States fund the 
series? What were they trying to convince Egyptians to believe? 
And I think that shows up in the polls that show that a 
striking percentage of Egyptians believe that the goal of the 
United States in Egypt is to weaken and divide Islam. So I 
think that is one answer.
    I think the other potential answer--and these gentlemen 
would be better qualified to comment--is the nature of the 
programs that U.S. assistance is funding. So I would encourage 
you to investigate where is money going. And I believe in 
Indonesia, it has been much more directed at the local level 
over the period of time in discussion.
    Mr. Phares. Yes, I will add a couple of things with regard 
to those percentages that are very worse than to us. I will 
take the example of Egypt. I don't have contention with the 
actual results of these polls because let me give you one 
example about Egypt. Egypt has 10 percent of its population, 10 
percent Copts. Now, when we ran the polls with regard to Copts 
through their churches, 80 percent basically supported being 
helped by the United States. So there is something wrong with 
the numbers. How can 80 percent of 10 percent completely 
support, and then there is 1 percent of the rest of Muslim 
communities----
    Mr. Sherman [presiding]. I am afraid the time has expired. 
I am doing that because we are going to have a vote on the 
floor, and I want to yield to Mr. Royce.
    Mr. Royce. Mr. Phares, you testified that Hamas ensures 
that the distribution of aid in Gaza occurs via groups set up 
by the organization itself. I was going to ask you, whose aid 
is Hamas distributing in Gaza?
    Mr. Phares. Hamas has a strategy basically to counter 
United States aid or European aid with their own strategies. 
Number one, if they can't take the control of that aid 
directly, i.e., by having Europeans or the United States 
accepting of Hamas as a government would do so, that would be 
the A) preference. It is not happening.
    B) Hamas would then set organizations, NGOs, or partner 
with NGOs, local NGOs, or even penetrate, if you may say, NGOs. 
Those NGOs are recognized by the United States or by the 
Europeans or the international communities and they will set 
the distribution of aid. What is missing in that operation is 
that the message that should go to the Palestinians living in 
Gaza will be simply eliminated. So we would be sending aid, it 
would be indirectly controlled by NGOs, controlled by Hamas, 
and the message won't go. That is why in the polling return 
that we have, you are not going to have a superb majority of 
Palestinians in Gaza supporting the idea.
    Mr. Royce. Do you see Hamas' control of aid there as 
integral to their sort of maintaining political control? Is 
that one of the ways in which they are able to----
    Mr. Phares. Across the board, Hamas, Hezbollah, or the 
dominant organizations I mention in my testimony, the first 
concern basically is not the actual physical logistical aid; 
they would welcome that aid, they would want to basically 
distribute it themselves; it is the message that would come 
with it.
    If it comes through NGOs or directly through the United 
States, that would promote values that are not the values of 
Hamas, or a project which is not Hamas, such as engaging in 
peace negotiations with Israelis or multipartners, especially 
after June 2007, then that will not be to their interest.
    Therefore, anytime United States or European aid will be 
delivered to the region, it is in their interest that they will 
seize the control of that aid for strategic reasons for this 
organization.
    Mr. Royce. I always saw it as sort of the, say, Tammany 
Hall did it in New York for these organizations.
    I was going to ask Dr. Lord, it has been reported that the 
U.S. Agency for International Development has distributed 
foreign assistance into Hamas-linked Islamic University in Gaza 
and al-Quds University. Do you think our aid needs better 
vetting?
    Ms. Lord. Sir, I am not qualified to answer that question. 
I can't confirm that the aid went there. I would question if 
that is true, what exactly the aid went to; was it a 
humanitarian reason, was it an educational reason? I would need 
far more information, I am afraid, to give you a good answer.
    Mr. Royce. Thank you, Kristin.
    Let me ask Mr. Phares another question. You have written 
that jihadi ideology is spreading and is crossing the barriers 
of ethnicities, races, nationalities, and geographical 
frontiers. We now have Fort Hood. So I was going to ask: This 
suggests, then, that it is a movement driven by much more than 
opposition to U.S. foreign policy, I would presume, in your 
mind.
    Mr. Phares. Yes. There are two schools that look into the 
issue. One school begins by saying anti-Americanism is 
generating jihadism. The other school, which I advocate, looks 
at it differently. Jihadism, as an ideology, is generating 
anti-Americanism and also other agendas for the simple historic 
reason that the jihadist ideologies have preceded--our U.S. 
foreign policy in the region have preceded the Arab-Israeli 
conflict. So the ideological rules of organizations such as 
Hamas or the Muslim Brotherhood or the Salafi combat groups 
have begun in the 1920s. So that is number one.
    Number two, the jihadists are basically an ideological 
movement within Muslim communities. And sometimes we have the 
confusion between Islamists and Muslim societies. Muslim 
societies are regular societies around the globe; the Islamists 
are a political movement that want to establish a certain 
regime. The jihadists are those who want to take that doctrine 
into action, into what they perceive or what they call jihad.
    Over the past 20-30 years, the jihadists have been able to 
go beyond the Arab cultural field and been able to penetrate 
other ethnicities and other cultures, other regions. That is 
why we see today, for example, jihadists are very active in the 
Sahal area of Africa or in Somalia, or all the way down to the 
south Philippines, or in Kashmir. Which means that, practically 
speaking, it is now an international movement; it is not just a 
local national liberation movement as could have been the case 
30 or 40 years ago.
    Mr. Royce. Thank you, Dr. Phares.
    I have seen it across Africa--it is quite a phenomenon--and 
in central Asia. Increasingly, villagers are asking questions 
about the changing of the culture; that their culture is being 
changed to Gulf State culture primarily through the madrassahs 
that spring up there, especially when they decapitate the young 
men for leaving the jihadist training.
    Mr. Sherman. I am going to have to interrupt at this point 
and also impose strictly the time limit on myself if we are 
going to have even 1 minute or 2 for the gentleman----
    Mr. Boozman. That is fine, I am enjoying this.
    Mr. Sherman. Well, we will try to maximize the 
entertainment value in the future of these proceedings.
    First of all, I think at least one witness commented that 
we don't want to be perceived as being selfish in the reasons 
why we give out aid. Let me assure you that no matter how pure 
we are, we will be perceived as being selfish. No one in the 
world is going to think that we are doing something and not 
keeping in mind our own interests, even if the truth be that we 
are not.
    Second, I want to echo the ranking member and his comment 
about Tammany Hall. Those of us who hold elective office, who 
hold some degree of power in the United States Government, 
understand that one of the key things to maintaining that power 
is bringing home the bacon. A ribbon-cutting is perhaps the 
most significant political activity. And I realize bringing 
home the bacon is not Halal, it is also not kosher, but it is 
critical to any government staying in power.
    And so the question then is, do we have examples of when 
our aid has gone through hostile governments, where hostile 
governments get to cut the ribbon, or through hostile quasi-
governmental institutions such as Hamas? We have heard about 
Hamas. Does anyone here have an example of where it is the 
Hamas flag on the bag or the anti-American flag on the bag?
    Mr. Ballen.
    Mr. Ballen. When we went into Pakistan after the 
earthquake, we were competing with local radical and extremist 
organizations who definitely put their mark and their brand on 
the bag. It was a competition. It was the same thing in 
Indonesia. And this is true, as others can--Dr. Phares can 
testify on the West Bank in Gaza, Hamas and Hezbollah 
definitely put their brand on the bag. There is no doubt about 
it.
    Mr. Sherman. Does anybody have an example of where we pay 
for the bag and the wrong flag is on the bag?
    Mr. Phares. If I may go north to Hezbollah was mentioned 
over the past 5 years. We could provide significant reporting, 
if asked.
    Mr. Sherman. You are asked. Please provide it for the 
record.
    Mr. Phares. Well, Hezbollah has been able to mount, 
actually, NGOs, Lebanese NGOs, or penetrate other existing 
NGOs, both human rights, humanitarians. And those NGOs have 
been recipients of U.S. aid through the Embassy and through 
other ways, so that when Hezbollah or the NGOs controlled by 
Hezbollah went to the Bakhar in the south, what the individual 
Lebanese shia have seen basically is an NGO whose members are 
from their neighborhoods, Hezbollah.
    Mr. Sherman. So these were Hezbollah front organizations 
distributing our aid?
    Mr. Phares. Yes.
    Mr. Sherman. I think most people in this room are good 
advocates of foreign aid, so please don't tell my constituents 
about the World Bank loans to Iran, and please don't tell them 
about these examples of United States aid going to Hamas and 
Hezbollah front organizations.
    Are we spending enough on public diplomacy? The natural 
tendency is to take every development dollar and spend it on 
development. I would argue that you should spend a certain 
percentage of it telling people. When I see private 
corporations do good, they put advertisements on my TV. I 
sometimes think maybe 75 percent of the money is going to tell 
me how much good the 25 percent is doing.
    I will go down the list. Maybe a quick yes, no. Are we 
spending enough to publicize our aid?
    Mr. Ballen. You know, we could spend as much as we want, 
and it is not going to work if the aid itself is not going to 
the people.
    Mr. Sherman. So we need a good strategy of the aid and the 
effort.
    Mr. Ballen. Correct.
    Mr. Sherman. But assuming we let you control the dollars 
that are being spent on public diplomacy, are there enough 
dollars?
    Mr. Ballen. Probably I would say yes.
    Mr. Sherman. Mr. Worthington, enough dollars, yes or no? We 
will get to strategy later.
    Mr. Worthington. No.
    Mr. Sherman. Dr. Phares.
    Mr. Phares. What we have earmarked exceeds the necessity 
for the battle of strategic communications. I am not expert on 
aid per se, but for strategic communications exceed.
    Mr. Sherman. So we are spending more than we need to on 
communications.
    Dr. Lord.
    Ms. Lord. Mr. Chairman, my answer is no.
    Mr. Sherman. We have to spend more?
    Ms. Lord. Correct.
    Mr. Sherman. Okay.
    Next, there are a number of criteria that go into selecting 
a country to aid and a project to fund. The question here is: 
In the foreign aid decisions that we make now, is that number 
one, or tied for number one, as a criteria for selecting 
projects, in general?
    Mr. Ballen.
    Mr. Ballen. We clearly do that. I mean, I think it is tied.
    Mr. Sherman. So it is a major priority.
    Mr. Ballen. Yes.
    Mr. Sherman. Mr. Worthington.
    Mr. Worthington. A direct link to U.S. foreign aid to 
strategic countries.
    Mr. Sherman. Dr. Phares. I think we need to divert the 
strategy to have partnership on the ground, NGOs. We don't have 
it.
    Mr. Sherman. Dr. Lord, in your testimony you said that it 
shouldn't be the number one criteria for selecting projects. Is 
it?
    Ms. Lord. No, I don't think it is.
    Mr. Sherman. It isn't, and it shouldn't be.
    We should vote. I don't know if the gentleman from Arkansas 
has any comments.
    Mr. Boozman. Yes. I would just like to follow up on your 
label question.
    The U.N. doesn't allow labels on the U.N. stuff from their 
partners that are distributing. USAID does, and sometimes it 
gets so labeled that you don't really know what is there. 
Should USAID consider going to the U.N. style and adopting that 
strategy?
    Mr. Worthington. My answer would be no. In the difficult 
places in the world where labeling is a problem, the reality is 
what is on the bag is really not important. If anything, our 
committee tries not to label anything, including the names of 
our member organizations, because it is too dangerous.
    Ultimately, it comes down to you are feeding someone. And I 
have seen an Islamic organization handing out a bag that is 
clearly marked from the American people, and showing that 
partnership between an Islamic organization from the American 
people being handed out to help people in a place like Darfur I 
think is a powerful message.
    Mr. Phares. The Islamic Republic of Iran or Qatar or Saudi 
Arabia, when they do send foreign aid to areas, they are proud 
to have the flag. And they accompany this flagging with 
individuals who explain what this aid is for. They will, in 
some cases, actually display the ideology.I21I think the United 
States, to be able to reach similar objectives, should not be 
afraid of flagging or of claiming. What it should do, in peril, 
is to have its partners, NGOs, non-government organizations, 
from the region, from the societies who espouse the same 
ideals, be accompanying this operation.
    Mr. Boozman. Thank you, Mr. Chairman.
    Mr. Sherman. I think we now stand adjourned. We have 4 
minutes and 28 seconds to go vote. Thank you very much, 
witnesses.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly deg.

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
